APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the United States Court of Appeals for
the Second Circuit (July 8, 2019) ....................... 1a
Omnibus Ruling on Plaintiff’s Motion to Reopen
Case. Motion for Appointment of Counsel, and
Motion to Transfer Judge
(November 1, 2018) ............................................ 3a
Order of the United States Court of Appeals for
the Second Circuit (August 24, 2017) .............. 12a
Order of the United States Court of Appeals for
the Second Circuit (May 19, 2017)................... 14a
OTHER DOCUMENTS
Plaintiff’s Memorandum in Opposition to USA
Memorandum to Dismiss (July 23, 2012)........ 16a
Affidavit of Peter Rumbin
(July 24, 2012) .................................................. 22a
Motion to Dismiss
(September 26, 1990)........................................ 25a
Notice of Service of Offer of Judgment
(August 21, 1990) ............................................. 27a
Motion for Leave to file Amended Answer
(July 20, 1990) .................................................. 29a
Amended Answer of Defendant Peter R. Rumbin
(July 20, 1990) .................................................. 31a
Plaintiff’s Initial Motion For Extension of Time to
Answer or Object to Interrogatories and
Respond to Request for Production and
Admissions (December 22, 1989) ..................... 35a

APPENDIX TABLE OF CONTENTS (Cont.)
Defendant’s Response to Plaintiff’s First Set of
Interrogatories, First Request for Production
of Documents and First Requests for
Admissions (January 19, 1990)........................ 37a
National Direct Student Loan Note
(March 29, 1977) ............................................... 49a
Student Loan Interim Note
(October 28, 1977) ............................................ 56a
Student Loan Interim Note
(December 21, 1978) ......................................... 62a
Defendant’s Original Answer
(November 3, 1989) .......................................... 68a
Offset Statement
(September 13, 2017)........................................ 71a

App.1a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT
(JULY 8, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________________
PETER R. RUMBIN,

Plaintiff-Appellant,
v.
ARNE DUNCAN, SECRETARY OF EDUCATION,
US DEPT OF EDUCATION, ET AL.,

Defendants-Appellees.
________________________
No. 18-3488
Before: Debra Ann LIVINGSTON,
Raymond J. LOHIER, Jr., Circuit Judges.
Appellant, pro se, moves for appointment of counsel
and an extension of time to file his brief. Upon due
consideration, it is hereby ORDERED that the motion
for appointment of counsel is DENIED and the appeal
is DISMISSED because it “lacks an arguable basis
either in law or in fact.” Neuzke v Williams, 490 U.S. 319,
 Judge Carney has recused herself from consideration of this
motion. Pursuant to Second Circuit Internal Operating Procedure
E(b), the matter is being decided by the two remaining members of
the panel.

App.2a
325 (1989); see also 28 U.S.C. § 1915(e). It is further
ORDERED that the motion for an extension of time is
DENIED as moot.
FOR THE COURT:
/s/ Catherine O’Hagan Wolfe
Clerk of Court

App.3a
OMNIBUS RULING ON PLAINTIFF’S
MOTION TO REOPEN CASE. MOTION FOR
APPOINTMENT OF COUNSEL, AND
MOTION TO TRANSFER JUDGE
(NOVEMBER 1, 2018)
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF CONNECTICUT
________________________
PETER R. RUMBIN,

Plaintiff,
v.
ARNE DUNCAN, ET AL.,

Defendants.
________________________
Civil Action No. 3:11-CV-904 (CSH)
Before: Charles S. HAIGHT, Jr.,
Senior United States District Judge.
HAIGHT, Senior District Judge:
Plaintiff Peter Rumbin (“Plaintiff’), proceeding
pro se, brings a motion to reopen his case pursuant to
Rules 59(e) and 60 of the Federal Rules of Civil Procedure, and presumably in anticipation of having his
case reopened, he also moves for appointment of pro
bono counsel and to transfer judges in this action
against Defendants Arne Duncan, Timothy Geithner,

App.4a
and Wells-Fargo Bank1 (collectively, “Defendants”).
Docs. 64, 74, 75. Defendant Duncan was Secretary of
Education and Defendant Geithner was Secretary of
Treasury. Doc. 64. This Court had entered judgment
in favor of Defendants on February 22, 2016, [Doc. 57],
and the Second Circuit denied his appeal, [Doc. 63].
This Ruling decides all three motions.
I.

Standard of Review for Pro Se Litigants

With respect to pro se litigants, it is well-established that “[p]ro se submissions are reviewed with
special solicitude, and ‘must be construed liberally
and interpreted to raise the strongest arguments that
they suggest.’” Matheson v. Deutsche Bank Nat’l Tr.
Co., 706 F. App’x 24, 26 (2d Cir. 2017) (quoting Triestman v. Fed. Bureau of Prisons, 470 F.3d 471, 474 (2d
Cir. 2006) (per curium)). See also Sykes v. Bank of Am.,
723 F.3d 399, 403 (2d Cir. 2013) (same); Tracy v. Freshwater, 623 F.3d 90, 101-02 (2d Cir. 2010) (discussing
special rules of solicitude for pro se litigants). The federal courts’ special solicitude towards pro se litigants
“also embraces relaxation of the limitations on the
amendment of pleadings, leniency in the enforcement
of other procedural rules, and deliberate, continuing
efforts to ensure that a pro se litigant understands
what is required of him.” Tracy, 623 F.3d at 101 (2d
Cir. 2010) (citations omitted) (collecting cases).
Nevertheless, while the right to self-representation “should not be impaired by harsh application of
1 The Court notes that Wells-Fargo Bank was not named as a
defendant in the original complaint. See Doc. 1 at 1. Wells-Fargo
allegedly assumed the loans that are at issue in this action. Doc.
64 at 7.

App.5a
technical rules,” this right “does not exempt a party
from compliance with relevant rules of procedural and
substantive law.” Traguth v. “Luck, 710 F.2d 90, 95
(2d Cir. 1983) (citation and internal quotation marks
omitted). See also McNeil v. United States, 508 U.S. 106,
113 (1993) (“We have never suggested that procedural
rules in ordinary civil litigation should be interpreted
so as to excuse mistakes by those who proceed without
counsel.”); Faretta v. California, 422 U.S. 806, 834
n.46 (1975) (“The right of self-representation is not a
license . . . not to comply with relevant rules of
procedural and substantive law.”); LoSacco v. City of
Middletown, 71 F.3d 88, 92 (2d Cir. 1995) (“Although
pro se litigants should be afforded latitude, . . . they
generally are required to inform themselves regarding
procedural rules and to comply with them. . . . This is
especially true in civil litigation.”) (citations and
internal quotation marks omitted); Edwards v. I.N.S.,
59 F.3d 5, 8 (2d Cir. 1995) (“[W]hile a pro se litigant’s
pleadings must be construed liberally, . . . pro se litigants generally are required to inform themselves
regarding procedural rules and to comply with them.”)
(citations omitted).
II.

Background

Plaintiff Rumbin was in default of student loans
that he had originally taken out in 1977. Rumbin v.
Duncan (Rumbin II), No. 3:11-CV-00904 (CSH), 2016
WL 632440, at *1 (D. Conn. Feb. 17, 2016). In 1989,
the United States government commenced an action
against Plaintiff for nonpayment, ending when the
parties stipulated to dismissal of the action with prejudice. Id. Plaintiff also agreed to hold the Department of Education harmless from any lawsuits related
to the action, and the Department of Education wrote

App.6a
off some, but not all, of his loans. Id. at *1—*2. In
2011, the Department of Treasury began making deductions from Plaintiff’s social security benefits to collect
on his loans that had not been written off, purportedly
because they fell under a different loan program and
were not subject to the 1989 settlement. Id. at *2.
Plaintiff then filed an action under this caption to
contest these deductions. Doc. 1. This Court dismissed
Plaintiff’s complaint with prejudice against Defendants Beth Harris and the University of Chicago as
barred by the statute of limitations. Rumbin v. Duncan,
No. 3:11-CV-904 (CSH), 2014 WL 2881397, at *6–*7
(D. Conn. June 25, 2014). The Court later granted
remaining Defendants’ motion to dismiss, dismissing
Plaintiff’s complaint with prejudice and closing the
case. Rumbin II, 2016 WL 632440, at *5. Judgment was
entered in favor of Defendants on February 22, 2016.
Doc. 57. Plaintiff appealed the decision to the Second
Circuit, but the Second Circuit dismissed the appeal
on May 19, 2017, and issued its mandate on July 28,
2017. Doc. 63. Plaintiff now seeks to reopen his case.
III. Discussion
A. Motion to Reopen under Rule 59(e)
On April 17, 2018, Plaintiff filed his motion to
reopen his case pursuant to Rules 59(e) and 60 of the
Federal Rules of Civil Procedure. Rule 59(e) states
that “[a] motion to alter or amend a judgment must be
filed no later than 28 days after the entry of judgment.” Fed. R. Civ. P. 59(e). A court cannot extend the
time to file a Rule 59(e) motion. Fed. R. Civ. P. 6(b)(2);
see also Lichtenberg v. Besicorp Group Inc., 204 F.3d

App.7a
397, 401 (2d Cir. 2000) (citing Rodick v. City of Schenectady, 1 F.3d 1341, 1347 (2d Cir. 1993) (“This time limitation is uncompromisable[.]”). This motion was made
more than two years after judgment was entered, and
even if one leniently interprets the Federal Rules of
Civil Procedure to refer to the date of the appellate
judgment, this motion was made almost nine months
after the Second Circuit issued its mandate. See Docs.
57, 63. Accordingly, Plaintiff’s motion to reopen his
case under Rule 59(e) is denied because the 28-day
filing deadline has clearly passed.
B. Motion to Reopen under Rule 60
Because Plaintiff cannot succeed under Rule 59(e),
the Court now examines his motion under Rule 60.
Rule 60 refers to relief from a judgment or order, which
may be granted on the following grounds:
(1) mistake, inadvertence, surprise, or excusable
neglect;
(2) newly discovered evidence that, with reasonable diligence, could not have been discovered
in time to move for a new trial under Rule
59(b);
(3) fraud (whether previously called intrinsic or
extrinsic), misrepresentation, or misconduct
by an opposing party;
(4) the judgment is void;
(5) the judgment has been satisfied, released, or
discharged; it is based on an earlier judgment
that has been reversed or vacated; or applying it prospectively is no longer equitable; or
(6) any other reason that justifies relief.

App.8a
Fed. R. Civ. P. 60(b). Rule 60 motions must be made
within a reasonable time, and “for reasons (1), (2) and
(3) no more than a year after the entry of judgment or
order or the date of the proceeding.” Id. In light of
Plaintiff’s pro se status, the Court will assume Plaintiff has made his Rule 60 motion within a reasonable
time because it was filed less than one year after the
Second Circuit dismissed Plaintiff’s appeal.2
Assuming timely filing then, the Court examines
his motion under the demanding standards of Rule 60.
“Rule 60(b) strikes a balance between serving the ends
of justice and preserving the finality of judgments.
Although it should be broadly construed to do substantial justice, . . . final judgments should not lightly
be reopened.” Tapper v. Hearn, 833 F.3d 166, 170 (2d
Cir. 2016) (citations and internal quotation marks
omitted). “A motion for relief from judgment is generally not favored and is properly granted only upon a
showing of exceptional circumstances.” United States
v. Int’l Bhd. of Teamsters, 247 F.3d 370, 391 (2d Cir.
2001) (noting also that the burden of proof is on the
party seeking relief from judgment). To grant relief
under Rule 60(b), a court must “find that (1) the circumstances of the case present grounds justifying
2 Rule 6(b)(2) also instructs courts not to extend the time to file
a motion pursuant to Rule 60(b), but because Rule 60(c) refers to
“reasonable time” as being allowed for Rule 60(b) motions, the
Court believes this assumption regarding filing deadlines is in
compliance with Rule 6(b)(2) as well. See Fed. R. Civ. P. 6(b)(2),
60(c). The Court acknowledges Defendants’ case citations suggesting Plaintiff’s Rule 60 motion should have been filed within a
year of this Court’s judgment. However, it is reasonable that a
pro se plaintiff would believe that Rule 60’s filing period runs
from when his appeal fails, and so the Court treats Plaintiff’s
motion with Proper leniency.

App.9a
relief and (2) the movant possesses a meritorious claim
in the first instance.” Sun v. Mashantucket Pequot
Gaming Enter., 309 F.R.D. 157, 160 (D. Conn. 2015)
(citation and internal quotation marks omitted).
“Circumstances of the case” refer to factors such as
“prejudice to the adversary, the length of the delay,
the reason for the error, the potential impact on the
judicial proceedings, whether it was in the reasonable
control of the movant, and whether the movant acted
in good faith.” Id. (citation and internal quotation marks
omitted). A “meritorious claim” is one that is sufficiently grounded in law. Id.
Plaintiff lists five reasons why this Court should
reopen his case: (1) he will be represented by counsel,
(2) he can present a “good defense to the case that was
not available before,” (3) the Court did not previously
reach the merits, (4) he was ignorant of the proper
discovery procedures, and (5) his previous complaint
was inadequately pled. Doc. 64 at 1. As the Defendants point out, Plaintiff’s stated grounds generally
amount to a wish to re-litigate his case, now with the
assistance of counsel, and Plaintiff’s pro se status is
not a new development. Docs. 66 at 12, 68 at 4. Plaintiff has not pointed to any changes in law, new evidence, or other factors listed in Rule 60(b) that would
allow this Court to disturb the finality of its 2016 judgment. Plaintiff claims to be able to now present a previously unavailable defense, but he does not explain
what that defense is nor why it was previously
unavailable. See Doc. 64.
Nor is pro se status an exceptional circumstance
upon which to grant this motion. See Doc. 71 ¶ 2. The
Court was well-aware that Plaintiff was representing
himself and treated Plaintiff accordingly. For example,

App.10a
the Court had considered an equitable estoppel argument that Plaintiff had not raised. Rumbin v. Duncan,
No. 3:11-CV-00904, 2016 WL 632440, at *3 (D. Conn.
Feb. 17, 2016). Rumbin clearly believed that the 1989
settlement discharged all of its loans, but as the Court
stated before, “Rumbin has not plausibly pled that the
Government made any misrepresentation of fact”
upon which he based his belief. Id. In other words,
Plaintiff had plausibly claimed that parties were
aware of all of Plaintiff’s student loans, but he had not
demonstrated that all of these loans should have been
discharged as a result of the 1989 settlement. See, e.g.,
Doc. 1 at 16-17. This discussion likely comes closest to
analyzing the merits of Plaintiff’s case, and, with no
new facts presented, Plaintiff still does not appear to
have a “meritorious claim in the first instance.” See
Sun, 309 F.R.D. 157 at 160. The Court sympathizes
with Plaintiff—it must have been an unpleasant and
unwelcome surprise when the federal government
came to collect, with significant interest accumulated,
years after he thought all his loans had been discharged.
However, Plaintiff had his chance to litigate in this
Court, and the law does not permit him to try again
simply because he now has willing counsel. Accordingly,
Plaintiff has not met the standard to reopen his case
under Rule 60 of the Federal Rules of Civil Procedure.
C. Motions for Appointment of Counsel and to
Transfer Case
Plaintiff’s motion for appointment of counsel and
motion to transfer his case to another judge are necessarily contingent on the Court ruling to reopen this
action. Because the Court denies his motion to reopen,
these motions are denied as moot.

App.11a
IV. Conclusion
Plaintiff’s motion to reopen this case pursuant to
Rules 59(e) and 60 of the Federal Rules of Civil Procedure, [Doc. 64], is DENIED. Accordingly, his motion for
appointment of counsel, [Doc. 74], and motion to transfer
his case to another judge, [Doc. 75], are DENIED AS
MOOT.
The Court adheres to its prior rulings [Docs. 50,
56], pursuant to which the Complaint was dismissed
and the case closed.
It is SO ORDERED.
/s/ Charles s. Haight, Jr.
Senior United States District Judge
Dated: November 1, 2018
New Haven, Connecticut

App.12a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT
(AUGUST 24, 2017)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________________
PETER R. RUMBIN,

Plaintiff-Appellant,
v.
ARNE DUNCAN, SECRETARY OF EDUCATION,
US DEPT OF EDUCATION, TIMOTHY
GEITHNER, UNITED STATES DEPARTMENT
OF TREASURY, BETH HARRIS,

Defendants-Appellees.
________________________
No. 16-878
Before: Rosemary S. POOLER.,
Gerard E. LYNCH., Circuit Judges.1
Appellant, pro se, moves for an appeal, which we
construe as seeking summary reversal. Upon due consideration, it is hereby ORDERED that the motion is
1 Judge Susan L. Carney, a member of the original panel, subsequently recused herself. Therefore, this case is decided by the two
remaining members of the panel pursuant to Internal Operating
Procedure E(b) of the Rules of the United States Court of Appeals
for the Second Circuit.

App.13a
DENIED. It is further ORDERED that Appellant’s
appeal from the grant of summary judgment to Appellee Harris is DISMISSED because it “lacks an arguable
basis either in law or in fact.” Neuzke v. Williams, 490
U.S. 319, 325 (1989), see also 28 U.S.C. § 1915(e). The
appeal will continue in the ordinary course as to the
other Appellees.
The parties are directed to brief, among any other
issues, whether the district court should have given
Appellant an opportunity to amend his complaint
before dismissal to state a claim under the Administrative Procedure Act or for breach of contract. See
Dolan v. Connolly, 794 F.3d 290, 295 (2d Cir 2015)
(explaining that “a pro se complaint should not be dismissed without the Court granting leave to amend at
least once when a liberal reading of the complaint
gives any indication that a valid claim might be
stated.” (Alterations and citation omitted)); Hendrickson
v. United States, 791 F.3d 354, 358-63 (2d Cir. 2015)
(explaining when a district court has jurisdiction over
a claim for breach of a settlement agreement).
FOR THE COURT:
/s/ Catherine O’Hagan Wolfe
Clerk of Court

App.14a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT
(MAY 19, 2017)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________________
PETER R. RUMBIN,

Plaintiff-Appellant,
v.
ARNE DUNCAN, SECRETARY OF EDUCATION,
US DEPT OF EDUCATION,
TIMOTHY GEITHNER, UNITED STATES
DEPARTMENT OF TREASURY,

Defendants-Appellees.
________________________
No. 16-878
Before: Reena RAGGI, Circuit Judge.,
Lewis A. KAPLAN, District Judge.†

 Judge Carney has recused herself from consideration of this
motion. Pursuant to Second Circuit Internal Operating Procedure E(b), the matter is being decided by the two remaining
members of the panel.
† Judge Lewis A. Kaplan, of the United States District Court for
the Southern District of New York, sitting by designation.

App.15a
Appellant, prose, moves for appointment of counsel
for oral argument. Upon due consideration of the arguments raised in his appellate brief, it is hereby
ORDERED that the motion is DENIED and the
appeal is DISMISSED because it “lacks an arguable
basis either m law or in fact.” Neuzke v. Willams, 490
U.S. 319, 325 (1989); see also 28 U.S.C. § 1915(e)(2)(B).
Appellant is also advised that this Court’s Local
Rule 322 requires that a pro se litigant who “submits
a paper that an attorney has drafted in whole or substantial part must state at the beginning of the paper,
‘This document was drafted in whole, or substantial
part, by an attorney.’’’ 2d Cir. R. 32.2.
FOR THE COURT:
/s/ Catherine O’Hagan Wolfe
Clerk of Court

App.16a
PLAINTIFF’S MEMORANDUM IN OPPOSITION
TO USA MEMORANDUM TO DISMISS
(JULY 23, 2012)
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF CONNECTICUT
________________________
PETER R. RUMBIN,

Plaintiff,
v.
ARNE DUNCAN, ET AL.,

Defendants.
________________________
No. 3:11-CV904 (CSH)
The plaintiff in the above entitle action hereby submits the following argument and authority in opposition the defendant United States of America’s (USA)
Memorandum to Dismiss, dated August 4, 2011, Doc. 12.
On page 4 of the USA’s memorandum it understates
the plaintiff’s position on his first claim as simply that
the U.S. is enforcing a claim that was dismissed. More
accurately the plaintiff’s claim is the U.S. present
enforcement and collection is improper as barred by
the doctrines of Res Judicata, claim and issue preclusion,
and collateral estoppel. That is, that the precise same
issues, claims, defenses, transactions, arguments,
among the same parties pertained to all four loans.

App.17a
The classic formulation of the res judicata and
claim preclusion doctrine is as follows:
[T]he judgment, if rendered on the merits,
constitutes an absolute bar to a subsequent
action. It is finality as to the claim or demand
in controversy, concluding parties and those
in privity with them, not only as to every
matter which was offered and received to
sustain or defeat the claim or demand, but as
to any other admissible matter which might
have been offered for that purpose. Cromwell
v. County of Sac, 94 U.S. 351-2, 24 L.Ed. 195
(1876).
More recently, the bar aspect has been articulated
as: If the plaintiff loses the litigation, the resultant
judgment acts a bar to any further by the plaintiff on
the “same claim” Kaspar Wire Works v. Leco Eng’g &
Mach, Inc., 575 F.2nd 30, 535 (5th Cir. 1978); Restatement 2nd of Judgments, § 19 (1982). Claim preclusion
prevents a party from suing on the same claim which
was previously litigated to final judgment by that
party and precludes the assertion by such party of any
legal theory, cause of action, or defense that could
have been asserted in that action. While issue preclusion
prevents relitigation of issues actually litigated and
necessary for the outcome of the prior suit, even it if
the current action involves different claims. Parklane
Hoisery Co. v. Shore, 439 U.S. 332, 326 n.5, 99 S. Ct.
645; Lawlor v. Nat. Screen Serv. Corp., 349 U.S. 332,
326, 75 S.Ct. 865(1955); Restatement 2nd of Judgments, § 17 cmt. a-c.
A claim in regard to the doctrines includes not
only those matters actually addressed by the prior
judgment but also those matters which could have

App.18a
been raised in the action. “Res judicata prevents litigation of all grounds for, or defenses to, recovery that
were previously available to the parties, regardless of
whether they were asserted or determined in the prior
proceeding.” Brown v. Felsen, 442 U.S. 127, 131, 99 S. Ct.
2205 (1979). Thus, matters that arise from the same
facts, occurrences or transaction that were the basis
of a prior action may be within the scope of claim
preclusion.
In this case, the defendant during the prior 1989
action specifically sought disclosure of all of the
defendant there and plaintiffs herein existing college
loans. See Document 1 attached to plaintiffs complaint.
In plaintiffs responses of January 19, 1990 to the
Interrogatories 1-3 the amounts and existence of all 4
loans was provided $890, $1650 and the two $2,500
subject loans in total form of $5,000, numbers G601
and F801 as referred to in defendant’s memorandum
at p. 3. (Complt. pp. 16-18). Thus, all four loans where
involved in that prior litigation. Furthermore the
chronology is undisputed. The plaintiff took out these
loans while attending the University of Chicago
during 1977 and 1978. Both loans were declared in
default on September 1, 1987, two full years prior to
the United States’ commencing the prior action on
October 17, 1989. (Defd’s Memorandum p. 3, Doc.12).
Thus, the existence and fact of default on the two
$2,500 loans were made known to the defendant
during the course of the prior litigation. On page 5 of
defendant’s memorandum it criticizes the plaintiff’s
mere conclusions that the debts being enforced are the
same debt. However, as the above cited authority
makes clear and as plaintiff’s res judicata argument
is that subject latter two loans are the same claim and

App.19a
same issue that was litigated in the prior action and
that they are barred by the doctrine because the loans
and default on them were extant and known and
raised and discussed during the prior litigation and
part of the deliberation and settlement reached.
Most significant, there was a full judicial pre-trial
with counsel in chambers with Judge Eginton including
candid discussion of all of the facts and issues, arguments and defenses were laid out and discussed as to
all four of the loans, that generated the stipulation for
judgment of dismissal with prejudice and entered by
agreement of both parties on September 24, 1990. Affidavit of Rumbin, para. 8 & 9, Attached. The defendant
USA waited some 21 years since that stipulation to
commence the enforcement through Treasury offset
with interest that increased the debt more than three
fold. Afdvt Rumbin, para. 10.
The doctrine of res judicata serves a vital public
interest of fundamental substantive justice and private
peace and finality that there be an end to litigation.
Federated Dept. Stores, Inc. v. Moitie, 452 U.S. 394,
401(1981); Hart Steele Co. v. RR Supply Co., 244 U.S.
294, 299 (1917); Reed v. Allen, 286 U.S. 191, 198-9
(1932).
Given the circumstances in this case where the
two latter loans were know, disclosed and already in
default and discussed in the pre-trial proceedings
leading up to the stipulated dismissal with prejudice,
it cannot be fairly said that those two loans are
entirely unrelated to the loans involved in the prior 1989
action. Rather they were involved as they presented
the same claim and issues and were subject, then, to
the same defenses and arguments, and they could
have been raised in that action, just as the $890 loan

App.20a
was. Thus, further assertion of the loan debt as to those
two loan debts is barred by the claim and issue
preclusion doctrines.
The defendant in their memorandum (p. 5) argue
that the plaintiff’s claim that the present enforcement
is improper because it is barred by the statute of limitation must fail because of the enactment of 20 U.S.C.
§ 1091(a)(a)(1). However, that section was enacted in
1991 as Pub. L. No. 102-26. Thus, at the time of the
stipulated dismissal, when the defendants were engaged
in litigation with the plaintiff over student loan debt
and could have raised the latter two debts, those two
debts were as a matter of law time barred by the 6
year period under the Consolidated Omnibus Budget
Reconciliation Act of 1985 (COBRA), Pub. L. No. 99272 (1986). It does not comport with the spirit and
policy of the doctrine of res judicata, to allow the
defendants a second bite of the apple by not asserting
their claims as to the latter two loans when they had
the opportunity in the present pending litigation and
then asserting it now when the law changed. To allow
such a result appears to offend Constitutional principles
of fundamental fairness.
As to the defendants claims that there was a failure of proper service upon the U.S. Attorney’s Office,
Attorney General and the agencies being sue, it asserted
that the plaintiff has filed on or about May 18 and 19,
2012 returns of service which show that both the U.S.
Attorney’s and Attorney General and the U.S. Departments of Education and Treasury were in fact served.
For all of the above reasons, the defendant USA
motion to dismiss should be denied.

App.21a
Respectfully Submitted,
/s/ Peter R. Rumbin
Pro Se
87 Second St.
Hamden, CT 06514

App.22a
AFFIDAVIT OF PETER RUMBIN
(JULY 24, 2012)
CONNECTICUT SUPERIOR COURT
________________________
PETER R. RUMBIN,

Plaintiff,
v.
ARNE DUNCAN, ET AL.
________________________
No. 3:11-CV904 (CSH)
I, Peter Rumbin, am over eighteen years of age
and believe in the obligations or an oath and make
these statements on the bases of my own observations
and experience;
1. In 1977 and 1978 I applied for Federal PELL
Grant money to attend the University of Chicago.
2. I also dealt with the University of Chicago
Financial Aid office who advised me apply for federal
guaranteed college loans, which I did.
3. The next summer I went to take courses a
Harvard University and the financial aid advisor
there check my loan status and advised me that I did
indeed have PELL grant money available while at the
Univ. of Chicago, but that it had not been used.
4. Over ten years later in 1989 I was sued by the
USA for unpaid an unpaid college loan with an initial
principle of $1,650.

App.23a
5. During the course of that litigation, I sought to
have the University of Chicago account for how the
grant money and loan money was applied and if in fact
they had credited my account with any Pell grant
monies.
6. At that time I also learned the U.S. Department of Education had investigated the University of
Chicago and found irregularities with the way they
handled the grant and loan money for students.
7. Also during the prior 1989 Conn. District Court
Proceedings I answered disclosure requests and
revealed information on what I thought was three
loans for $1,650, $890 and $5,000 respectively, and
later learned that the later was really two loans of
$2,500 principle.
8. In the 1989 case proceeding there were pre-trial
conferences and at one point before the Hon. Judge
Eginton a full candid conference with the U.S. Attorney, Attorney Leff and myself where each of the four
loans and all of the defenses of limitations periods,
fraudulent inducement, lack of consideration, the irregularities with the student loan and grant on the part of
the University of Chicago and the U.S. Department of
Education investigation of them, and their being
made to return grant money, and specifically all four
of the loans disclosed.
9. It was after all of the facts and issues, arguments
and defenses and issue were laid out and discussed as
all four of the loans, the stipulation for judgment of
dismissal with prejudice was entered by agreement of
both parties on September 24, 1990.
10. When I was applying for the financial aid and
loans I was told by the University of Chicago financial

App.24a
aid advisers that they would first allocate all available
grant moneys toward my tuition costs and then utilize
loan money, which they did not do and refuse to account
as to what and how the allocation was.
11. I was induced to borrow moneys in reliance
upon that representation, which the University did
not keep and breached.
12. The defendant USA waited some 21 years
until March 2011 with the interest piling up to institute the enforcement by Treasury offset.
/s/ Peter Rumbin
Affiant
Subscribed and sworn to before me on
7/24/2012 at Hamden, CT
/s/ Robert C, Ruggiero, Jr.
Comm. of the Superior Ct of Conn.

App.25a
MOTION TO DISMISS
(SEPTEMBER 26, 1990)
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
________________________
UNITED STATES OF AMERICA,

Plaintiff,
v.
PETER R. RUMBIN,

Defendant.
________________________
Civil No. N-89-522 (WWE)
Pursuant to Rule 41 of the Federal Rules of Civil
Procedure, the federal plaintiff hereby moves the
Court to dismiss this action with prejudice, in accordance
with the attached Stipulation.
Respectfully Submitted,
The Plaintiff
By: Stanley A. Twardy, Jr.
United States Attorney
/s/ Christine Sciarrino
Special Asst. U.S. Attorney
915 Lafayette Blvd.
Bridgeport, CT 06604
(203) 579-5596

App.26a
STIPULATION FOR DISMISSAL
(SEPTEMBER 26, 1990)
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
________________________
UNITED STATES OF AMERICA,

Plaintiff,
v.
PETER R. RUMBIN,

Defendant.
________________________
Civil No. N-89-522 (WWE)
It is hereby stipulated by and between the federal
plaintiff, United States of America, on the one hand,
and the defendant, Peter R. Rumbin, on the other hand,
by and through their respective attorneys as follows:
1. That the parties do hereby agree to the dismissal
of the above captioned action with prejudice, each
party to bear his own costs and attorney’s fees.
2. That the defendant, Peter R. Rumbin agrees to
discharge and hold and save harmless the United
States of America and the Secretary of the United
States Department of Education and their agents,
officers and employees from any claims, including costs
or expenses for or on account of any and all lawsuits
or claims of any character whatsoever, in connection
with the subject matter or institution of this action.

App.27a
NOTICE OF SERVICE OF OFFER OF JUDGMENT
(AUGUST 21, 1990)
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
________________________
UNITED STATES OF AMERICA,

Plaintiff,
v.
PETER R. RUMBIN,

Defendants.
________________________
Civil No. N-89-522 (WWE)
To: Carmen Espinoza Van Kirk
Assistant United States Attorney
450 Main Street, Room 328
Hartford, CT 06103
Diedre O’Connor
Christine Sciarrino
Assistant United States Attorneys
915 Lafayette Boulevard, Room 309
Bridgeport, CT 06604
Pursuant to Rule 68 of the Federal Rules of Civil
Procedure, the Defendant Peter Rumbin hereby gives
notice of Service of Offer of Judgment to the Court in
the above-captioned matter.

App.28a
Said Offer of Judgment has been made for the
purposes specified in Rule 68, and is not to be
construed as an admission that the defendant is liable
in any way in this action, or that the plaintiff has
suffered any damage.
The Defendant,
Peter R. Rumbin
/s/ David A. Left
Jacobs, Grudberg Belt & Dow, P.C.
350 Orange Street
New Haven, Connecticut 06503
(203) 772-3100

App.29a
MOTION FOR LEAVE TO FILE
AMENDED ANSWER
(JULY 20, 1990)
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
________________________
UNITED STATES OF AMERICA,

Plaintiff,
v.
PETER R. RUMBIN,

Defendant.
________________________
Civil No. N-89-522 (WWE)
Defendant Peter R. Rumbin moves the Court for
leave to file an amended answer, a copy of which is
attached hereto as Exhibit A, on the ground that the
defendant’s original answer, filed on November 3,
1989, was completed by the defendant before he was
represented by counsel. As the defendant has no legal
training, he was unaware of the defenses available to
him, and his answer fails to fully address the legal
issues between the parties.
For the foregoing reasons, justice requires that
the defendant be given an opportunity to file an amended answer.

App.30a
Counsel for plaintiff has been contacted and
states that she has no objection to the granting of this
motion.
The Defendant,
Peter R. Rumbin
/s/ David A. Left
Jacobs, Grudberg Belt & Dow, P.C.
350 Orange Street
New Haven, Connecticut 06503
(203) 772-3100
His Attorneys

App.31a
AMENDED ANSWER OF DEFENDANT
PETER R. RUMBIN
(JULY 20, 1990)
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
________________________
UNITED STATES OF AMERICA,

Plaintiff,
v.
PETER R. RUMBIN,

Defendant.
________________________
Civil No. N-89-522 (WWE)
Now comes the defendant Peter R. Rumbin, for
Amended Answer to the Complaint as follows:
First Defense
The Complaint fails to state a claim against the
defendant upon which relief can be granted.
Second Defense
The right of action set forth in the Complaint did
not accrue within six years next before the commencement of this action.

App.32a
Third Defense
1. The defendant admits the allegations contained
in Paragraph 1 of the Complaint.
2. The defendant admits the allegations contained
in Paragraph 2 of the Complaint.
3. The defendant is without sufficient information to either admit or deny the allegations contained
in Paragraph 3 of the Complaint and leaves the plaintiff to her proof.
4. The defendant admits that demand has been
made upon him for the sum of $2,107.58, by letter of
the plaintiff, dated October 5, 1989 (a copy of which is
attached hereto as Exhibit A). The defendant is without
information to either admit or deny all other allegations
contained in Paragraph 4 of the Complaint and leaves
the plaintiff to her proof.
FOURTH DEFENSE
1. If any money was loaned to the defendant,
such money was loaned to the defendant as part of an
underlying agreement to provide financial assistance
to the defendant.
2. The University of Chicago required the defendant to apply for loans as a condition precedent to an
award of financial assistance.
3. The University of Chicago, through its agents,
servants, and employees, represented to the defendant that federal grant monies then available to the
University of Chicago would be allocated first to meet
the defendant’s financial assistance requirements
before the University of Chicago would require the

App.33a
defendant to take a student loan as part of his award
of financial assistance.
4. Acting in reliance upon the above-recited representation, the defendant was induced to apply for
financial assistance from the University of Chicago.
5. Following its review of the defendant’s application for financial assistance, the University of
Chicago directed the defendant to take a student loan
as part of an award of financial assistance.
6. The University of Chicago intentionally and
deliberately failed to utilize the federal grant monies
then available, and despite its failure to exhaust these
funds, it required the defendant to take a student
loan.
7. Acting in reliance upon the representation of
the University of Chicago that it would exhaust the
available federal grant monies first before requiring
the defendant to take a student loan, the defendant
was caused to incur the onerous and unnecessary
burden of a student loan.
WHEREFORE, any obligations arising as a result
of any sums loaned by or through the University of
Chicago, evidenced by any note or otherwise, are unenforceable against the defendant for the following
reasons:
a.

The defendant was fraudulently induced to
incur such obligation by the University of
Chicago;

b.

There was a want or failure of consideration
to the underlying agreement to provide financial aid; and

App.34a
c.

There was a failure to perform a condition
precedent to the underlying agreement to provide financial aid.
The Defendant,
Peter R. Rumbin
/s/ David A. Left
Jacobs, Grudberg Belt & Dow, P.C.
350 Orange Street
New Haven, Connecticut 06503
(203) 772-3100
His Attorneys

App.35a
PLAINTIFF’S INITIAL MOTION FOR
EXTENSION OF TIME TO ANSWER OR OBJECT
TO INTERROGATORIES AND RESPOND TO
REQUEST FOR PRODUCTION AND ADMISSIONS
(DECEMBER 22, 1989)
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
________________________
UNITED STATES OF AMERICA,

Plaintiff,
v.
PETER R. RUMBIN,

Defendant.
________________________
Civil No. N-89-522 WWE
Pursuant to Rules 33 and 34 of the Federal Rules
of Civil Procedure and Rule 9 of the Local Rules of
Civil Practice, the defendant in the above entitled
action moves the court to grant an extension of time
of an additional twenty days for the defendant to
answer or object to interrogatories and respond to
requests for production and admissions, dated December 4, 1989, served on the defendant by the plaintiff
as its First Set of Interrogatories, Production Requests
and Requests to Admit.
The undersigned pro se defendant represents that
he has on the above date inquired of the opposing counsel

App.36a
as to this motion and has ascertained from him that
he has no objecting to the granting of this motion by
agreement.
The Defendant, Pro Se
/s/ Peter R. Rumbin
87 Second Street
Hamden, Conn. 06514
Phone: (203) 776-0235

App.37a
DEFENDANT’S RESPONSE TO PLAINTIFF’S
FIRST SET OF INTERROGATORIES, FIRST
REQUEST FOR PRODUCTION OF DOCUMENTS
AND FIRST REQUESTS FOR ADMISSIONS
(JANUARY 19, 1990)
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
________________________
UNITED STATES OF AMERICA,

Plaintiff,
v.
PETER R. RUMBIN,

Defendant.
________________________
Civil No. N-89-522 (WWE)
Pursuant to Federal Rules of Civil Procedure 33,
34, and 36, plaintiff, United States of America, requests
that defendant, Peter R. Rumbin respond to the
interrogatories in Part II, and produce the documents
in Part III, and respond to the requests for admission
in Part IV, in accordance with the instructions and
definitions set forth in Part I, within thirty (30) days
at the Office of the United States Attorney, 915
Lafayette Blvd., Room 309, Bridgeport, Connecticut
06604, and permit the plaintiff, its attorneys and agents,
to inspect and copy any documents produced.

App.38a
I.

Instructions and Definitions

The following instructions and definitions apply
to each discovery request contained herein:
1. The term “document” includes, but is not limited
to, originals and copies of all correspondence, literature,
papers, memoranda, reports, notes, rough drafts,
notebooks, work pads, messages, telegrams, mailgrams, tape recordings, transcripts, records, pamphlets,
manuals, books, letters, releases, contracts, agreements,
receipts, checks, and other recorded data.
2. This request is intended to cover all documents
in the possession, custody or control of Peter R. Rumbin,
including:
(a) documents in the physical, representatives,
investigators, affiliates or its attorneys’ agents,
employees, representatives or investigator’s;
and
(b) documents which are in the physical custody
of any person or entity other than peter R.
Rumbin and which Peter R. Rumbin (I) owns
such documents in whole or in part (II) has a
right by contract or otherwise to retrieve,
use, inspect, examine or copy such documents, (III) has an understanding express or
implied, that Peter R. Rumbin may retrieve,
use, inspect examine or copy such documents
on any terms or (IV) has, as a practical matter,
been able to use, inspect, examine or copy
such documents when Peter R. Rumbin has
sought to do so.
3. If any document or category of documents cannot
be produced in full, Peter R. Rumbin shall produce to

App.39a
the extent possible and shall specify the reason for its
inability to produce that portion of the document or
category of documents not produced.
4. “Identify” shall mean the following:
(a) when used in reference to a natural person,
it means to state the person’s:
(1) full name;
(2) present home address, or, if unavailable,
last known home address;
(3) present business address, or, if unavailable, last known business address; and
(4) business affiliation and job title, or, if
unavailable, last known business affiliation job title;
(b) when used in reference to a document, it
means to state the type of document (e.g.,
letter, memorandum, telegram, chart) or other
means of identifying it, its author and originator, its date or dates, all addresses or
recipients and its present location or custodian.
5. The applicable time period for responses to these
requests, unless otherwise stated in a particular request,
is January 1, 1977, to date, and is ongoing.
II.

Interrogatories

1. Identify all loans or grants received by Peter
R. Rumbin or the University of Chicago for the education of Peter R. Rumbin including:
(A) The Source of each loan or grant;

App.40a
Response:
1)

University of Chicago, National Direct
Student Loan.

2)

Connecticut Saving Bank, Connecticut
Student Loan Foundation.

(B) The amount of each loan or grant;
Response:
1)

$890.300 plus interest.

2)

$5,000.00

(C) The terms of repayment of each loan or grant;
Response:
1)

The payment of principal and interest to
be made commencing 9 months after I
ceased 1/2 normal full-time academic
workload at an institution of higher
education and ending ten years and 9
months thereafter at 3% per year from
the beginning of repayment period; see
loan note in plaintiff’s possession.

2)

Unknown; low interest with payment
deferred until education ended.

(D) Present balance due and owing by Peter R.
Rumbin on each loan or ·grant;
Response:
1)

Undetermined

2)

$5,739.89 as of 3-28-89.

(E) The source and date of each payment made
as repayment of the loan or grant;

App.41a
Response:
1)

None

2)

Paid off by National Account Service on
or about 3-28-89.

2. Identify the agents, servants, or employees of
the University of Chicago who communicated with
Peter R. Rumbin regarding repayment of the National
Direct Student Loan Note executed on or about March
29, 1977.
Response:
a)

Tim Curtis, P.O. Box 92250, Los Angeles, CA
90009, Account Rep. Academic Financial
Services Assoc.

b)

Department of Health Education and Welfare,
Office of Education, Bureau of Student Financial Assistance, P.O. Box 8422 Chicago, Ill.
60680

c)

Mrs. Lorna P. Straus, The University of
Chicago; 1116 E. 59th St., Chicago, Ill. 60637;
Dean of Student in the College.

d)

E.W. Osborn, Jr.; University of Chicago, 5801
Elis Ave., Chicago, Ill. 60637; Director of
Student Loan Center.

e)

Fred R. Brook, Jr., The University of Chicago,
Office of College Aid, Chicago, Ill. 60637,
Director.

3. Describe the substance of these communications and any internal decisions, agreements, or documents, which were the result of communications
between Peter R. Rumbin and agents, servants, or

App.42a
employees of the University of Chicago regarding repayment of the National Direct Student Loan Note executed
on or about March 29, 1977.
Response:
a)

A Statement of principal due of the $980 and
discussion of rights of deferment due to fulltime student status.

b)

Notice of delinquency-amounts $942.73 or
942.67.

c)

Application for additional loans; tuition for
’78, college aid office.

d)

Obligations under NDSL and FISL; sale of
loan to student loan marketing assoc.; loan
balance stated as $1,650 and $180 past due.

e)

College aid granted of $2010 gift and loan of
$1,650.

4. Identify the date, location, and substance of
any communication between Peter R. Rumbin and
agents, servants or employees of the University of
Chicago, regarding repayment of the National Direct
Student Loan Note executed on or about March 29,
1977.
Response:
a)

Sept. 7, Aug. 31, July 31, Aug. 22, 1978 and
Sept. 30, 1979.

b)

Jan. 31 and Mar. 1, 1981.

c)

Jan 10, 1978.

d)

Oct. 17, 1950.

e)

Apr. 11, 1977.

App.43a
All by mail to Hamden, Conn. address. (See Ans.
to interrogatory No. 3 above for substance).
5. Describe and identify the terms of repayment
of the National Directed Student Loan Note, executed
on or about March 29, 1977 by Peter R. Rumbin,
including;
(A) The document or oral statement specifying
repayment;
Response:

See Answer to interrogatory No. 1(B) (1)
above, and loan note dated March 29, 1977
in plaintiff’s possession.
(B) The date of the oral statement.
Response:
None.
(C) All persons who have knowledge of the terms
of repayment.
Response:
Peter R. Rumbin; Tim Curtis; Lorna P. Straus;
E.W. Osborn Jr.; Fred R. Brooks Jr.
(See Answer to interrogatory No. 2 above for
addresses and titles)
6. Describe the manner in which the University
of Chicago failed and neglected to utilize federal
BEOG (Now PELL) funds.
Response:
BEOG funds were available for educational
expenses of the defendant at the time of the
loans involved but were not utilized first

App.44a
resulting in the unnecessary utilization of
loan monies and additional monies paid by
the defendant’s parents. On confirmation
and belief, the University of Chicago was
made to return unused BEOG funds to the
U.S. Dept. HEW after investigation on or about
Oct., 1980.
7. Describe the fraudulent misrepresentations
made to Peter R. Rumbin by servants, agents or
employees of the University of Chicago, including:
(A) The substance of the fraudulent misrepresentations;
Response:
The defendant had to apply for student
loans and grants as a condition to receipt
of financial aid and that the university
would utilize all available grant monies
first in payment for defendant’s education expenses before resorting to use of
loan money.
That the defendant could obtain sufficient financial aid to complete his education at that university.
(B) The date of each fraudulent misrepresentation:
Response:
On divers times prior to and on or about
March 29 and April 15, 1977
(C) The name of the individual knowledgeable of
the fraudulent misrepresentation:

App.45a
Response:
Fred R. Brooks, Jr.; William Borchert,
Asst. Dir. of College Aid; Lorna P. Straus,
Dean of students; all of University of
Chicago, 1116 E. 59th St., Chicago Ill.
60637, Nancy Eakin, Dir. of Claims,
U.S. Dept. of Education, Division of
institutional Review, 401 So. State St.,
Chicago, Ill. 60605 and
(D) The name of the individual who made each
fraudulent misrepresentation;
Response:
Fred R. Brooks, Jr.; Lorna P. Straus, Enid
Rieser, Asst. Dean of Students/advisor
and others, (See Ans. To interrogatory
No. 2 for addresses and titles).
III. Request to Produce
Pursuant to Federal Rule of Civil Procedure 34,
the United States requests that Peter R. Rumbin
produce the following documents:
1. All documents constituting the contents of any
file pertaining to Peter R. Rumbin and the National
Direct Student Loan Note executed on or about March
29, 1977.
Response: Produced.
2. All notes, memorandum or other documents
of conversations held between Peter R. Rumbin and
 Inter. No. 7(c) Cont. Virginia Safran, Student Loan Officer,
Univ. of Chicago, 1116 E. 59th St., Chicago, Ill., Last known
Residence New Haven, Conn. as of 1980.

App.46a
agents, servants or employees of the University of
Chicago, pertaining to the National Direct Student
Loan, executed on or about March 29, 1977.
Response: Produced.
3. All written correspondence or documents
received from or sent to Peter R. Rumbin by the University of Chicago or the United States of America,
pertaining to the National Direct Student Loan executed
by Peter R. Rumbin on or about March 29, 1977.
Response: Produced.
4. All documents pertaining to the decisions set
forth in Interrogatory No.1.
Response: None.
5. All documents pertaining to the decisions set
forth in Interrogatory No.3.
Response: None.
6. All documents pertaining to the decisions set
forth in Interrogatory No.4.
Response: Produced.
7. All documents pertaining to the decisions set
forth in Interrogatory No.5.
Response: Loan document in Plaintiff’s possession speaks for itself.
8. All documents pertaining to the decisions set
forth in Interrogatory No.7.
Response: Produced Notes on Telephone conversation with U.S. Dept. of Ed., Region 5
Director of Claims, Nancy Eakin, dated Oct.
23-24, 1980.

App.47a
IV. Requests for Admission
Pursuant to Federal Rule of Civil Procedure 36,
Peter R. Rumbin is instructed to admit the truth of
the following within thirty (30) days of service.
1. On or about March 29, 1977, Peter R. Rumbin
signed a National Direct Student Loan Note.
Answer: Admitted.
2. Attached hereto, as Exhibit “A” is true and correct copy of a National Direct Student Loan Note,
executed by Peter R. Rumbin.
Answer: Admitted.
3. Pursuant to a National Direct Student Loan,
Peter R. Rumbin was loaned $ 1650.00, for attendance
at the University of Chicago.
Answer: Upon reasonable inquiry and investigation, there are conflicting figures in
communications, such that I do not have sufficient information or knowledge to admit or
deny the statement. It is admitted that I
signed a note to the effect, it is not known
whether that amount was actually applied or
spent on my education.
4. Peter R. Rumbin has made no payments toward
the National Direct Student Loan Note, executed on
or about March 29, 1977.
Answer: Admitted.

App.48a
5. The defendant has no information to refute the
mathematical calculation of the National Direct Student
Loan, as referenced in the Complaint.
Answer: Denied. See conflicting figures in
correspondence re: loans produced herewith.

App.49a
NATIONAL DIRECT STUDENT LOAN NOTE
(MARCH 29, 1977)
THE UNIVERSITY OF CHICAGO
OFFICE OF STUDENT ACCOUNTS
CHICAGO, ILLINOIS
I, Peter R. Rumbin, hereinafter called the Maker,
promise to pay to the University of Chicago, hereinafter
called the Institution, located at 5801 Ellis Avenue,
Chicago, Illinois 60637, such amounts as may from
time to time be advanced to me and endorsed hereon
together with all attorneys’ fees and other costs and
charges for the collection if any amount not paid when
due according to the terms of the note.
The Maker further understands an agrees, and it
is understood between the parties that:
I. All sums advanced pursuant to this note are
drawn from fund created under Part E of title IV of
the higher education Act of 1965, as hereinafter called
the act the terms of the note as a subject to
interpretation shall be constructed in the light of such
act under federal regulation pertaining to the Act,
copies of which shall be kept by the lending
institution.
II. Repayment of principal, together with interest
thereon, shall be made over period Commencing
(except when paragraph III(3) is applicable) 9 months
after the date on which the Maker ceases to carry, at
an Institution of Higher Education, or at a comparable
institution outside the states approved for this purpose by the U.S. Commissioner of Education,
hereinafter called the Commissioner, at lease one-half

App.50a
the normal full time academic workload and ending 10
years and 9 months after such date. Interest of 3 per
centum per annum shall accrue from the beginning of
such repayment period Repayment of Principal,
together with interest thereon, shall be made in equal
(or, if the Maker so requests in graduation installment
determined in accordance with such schedules as may
be approved by the lending Institution and the commissioner) quarterly, or monthly installment (as
determined by the lending Institution) in accordance
with the schedule which is attached to and made part
of the note.
III. This Note is subject also to the following conditions
(1) The Maker may at his option and without
penalty prepay all or any part of the principal,
Plus the accrued interest thereon, at any time.
(2) In the event of failure to meet a scheduled
repayment of any of the installment due on
this Note, the entire unpaid indebtedness
including interest due and accrued thereon,
shall at the option of the lending Institution,
become immediately die and payable.
(3) Interest shall not accrue, and installment
need not be paid during any period (A) during
which the Maker is carrying, at an institution of higher education or at a comparable
institution outside the states approved for
this purpose by the Commissioner, at least
one-half the normal full-time academic workload or (B) not an excess of 3 years during
which the Maker (I) is on full-time active
duty as a member of the Armed Forces (Army,

App.51a
Navy, All Force, Marine Corps, or Coast
Guard) of the United States, (II) is in service
as a volunteer under the Peace Corps Act, or
(III) is in service as a volunteer under Title
VIII of the Economic Opportunity Act of
1965 (VISTA). Any such period in (A) or (B)
shall not be included in determining the 10year period during which repayment must be
completed as specified in paragraph II.
(4) If the Maker undertakes service after June 30,
1972, (A) as a fulltime teacher in a public or
other nonprofit private elementary or secondary school which is m a school district of a
local educational agency which is eligible in
such year for assistance pursuant to Title I
of the Elementary and Secondary Education
Act of 1965 and which for the purposes of
this clause and for that year has been
designated by the Commissioner in accordance with the provisions of section 465(A)(2)
of the Act as a school with a high enrollment
of students from low-income families, or (B)
as a full-time teacher of handicapped children
(including mentally retarded, hard of hearing,
deaf, speech impaired, visually handicapped,
seriously emotionally disturbed, or other
health-impaired children who by reason
thereof require special education) in a public
or other nonprofit elementary or secondary
school system, for each complete year of such
service the amount of this Note shall be
reduced at the rate of 15 per centum of the
total principal amount of the loan plus
interest thereon for the first and second year

App.52a
of such service, 20 per centum of the total
principal amount plus interest thereon for
the third and fourth year of such service, and
30 per centum of the total principal amount
plus interest thereon for the fifth year of
such service.
(5) If, after June 30, 1972, the Maker undertakes
service as a fulltime staff member in a preschool program earned on under section
222(A)(I) of the Economic Opportunity Act of
1964 (Head Start) which is operated for a
period which is comparable to a full school
year in the locality, and provided that the
salary of such staff member is not more than
the salary of a comparable employee of the
local educational agency, the principal
amount of this Note shall be reduced at the
rate of 15 per centum of the total principal
amount of the loan plus interest thereon for
each complete year of such service.
(6) If, after June 30, 1972, the Maker serves as a
member of the Armed Forces of the United
States, up to 50 per centum of the principal
amount of this loan shall be reduced at the
rate of 12½ per centum of the total principal
amount of the loan, plus interest thereon, for
each complete year of service in an area of
hostilities that qualifies for special pay
under section 310 of Title 37, United States
Code.
(7) The Maker is responsible for informing the
lending institution of any change or changes
in his address.

App.53a
(8) Notwithstanding the repayment schedule
otherwise calculable to Part II, the Maker
shall repay the total principal amount of this
loan at the rate of not less than $30 per
month In the event the Maker receives or
has received other National Direct Student
Loans from other Funds authorized by the
Act at one or more other lending Institutions,
he/she shall repay this note at a monthly
rate equal to not less than the amount by
which $30 exceeds the total monthly rate of
principal repayment on all such other loans.
(9) If the Maker fails to make timely payment of
all or any part of a scheduled installment, or
If the Maker is eligible for deferment or
cancellation of payment (pursuant to Part
III(3), (4), (5), or (6)), but fails to submit timely
and satisfactory evidence thereof, the Maker
promises to pay the charge assessed against
him by the lending Institutions. No charge
may exceed (I) where the loan is repayable in
monthly installments, $1 for the first month
or part of a month by which such installment
or evidence is late, and $2 for each month or
part of a month thereafter; or (2) m the case
of a loan which is repayable in quarterly
installments, $3 and $6, respectively, for
each installment interval or part thereof by
which such installment or evidence is late. If
the lending Institution elects to add the
assessed charge to the outstanding principal
of the loan, It shall so inform the Maker prior
to the due date of the next installment.

App.54a
IV. Thus Note shall not be assigned by the
lending Institution except, upon transfer of the Maker
to another Institution participating in this program
(or, If not so participating, Is eligible to do so and is
approved by the Commissioner for such purpose), to
such Institution; provided that assignment may be
made to (A) Institutions other than those to which the
Maker has transferred or to the United States where
the lending Institution ceases to function as an educational Institution and (B) to the United States if this
note has been m default for two years. The provisions
of this note that relate to the lending Institution shall
where appropriate relate to an assignee.
V. The Maker hereby certifies that he has listed
below all of the National Direct Student Loans (or
National Defense Student Loans) he has obtained at
other Institutions.
/s/ Peter Rumbin
Signature of the Maker
Date: 29 March, 1977
For value received, the undersigned (who, if two or
more in number, shall be jointly and severally bound)
hereby unconditionally guarantee(s) the payment of
the within note and all costs, expenses and attorneys’
fees incurred in the collection thereof and the enforcement hereof, and waive(s) presentment, demand, protest, and notice of dishonor and of any renewal or
extension of said note and consents to any such
renewal or extension.

App.55a

SCHEDULE OF ADVANCES
Amount

Date

Signature

$1050.00

3/29/77

/s/ Peter Rumbin

$600.00

4/15/77

/s/ Peter Rumbin

The National Direct Student Loan(s), which you
have received, together with an ANNUAL PERCENTAGE RATE of 33 on the unpaid balance, is
repayable in accordance with a repayment schedule to
be executed at the time you terminate at least halftime study at this institution. The finance charge
begins to accrue at the termination of the grace or
other deferment period.
The AMOUNT FINANCED (or the total of all
loans due) is repayable in accordance with the
provisions of the promissory note and the repayment
schedule to be attached thereto; and this is subject to
provisions relating to DELINQUENCY and DEFAULT
CHARGES specified in the promissory note form.
The maker may, at his option, and without penalty, prepay all or any part of the principal plus the
accrued interest at any time.
/s/ Peter Rumbin
Signature of the Maker
Date: 29 March, 1977
The Maker acknowledges receipt of an exact copy
of this note.

App.56a
STUDENT LOAN INTERIM NOTE
(OCTOBER 28, 1977)
No 339-01070
_________________________
Amount of Loan $2,500.00
FOR VALUE RECEIVED, the undersigned
Borrower premises to pay to the order of Connecticut
Saving Bank, 47 Church Street, New Raven, Connecticut
The sum of Two Thousand five hundred dollars
and no cents Dollars ($2,500.00) together with Interest
at the rate of Seven (7) percent per annum on the
outstanding principal balance, which interest shall be
charged and shall accrue from the date hereof, or if
the loan proceeds are disbursed at a later date from
the date of actual disbursement by the lender of the
loan proceeds. If there is such a delay in the
disbursement of load proceeds the obligation of the
borrower is conditioned upon the disbursement of loan
proceeds in the amount stated above. This Note
becomes payable and shall mature upon the earlier of
the following dates, (1) the first day of the thirteenth
calendar month after the month in which the
borrower completes the academic program for which
the loan was made, or (2) the first day if the tenth
calendar month after the month which the borrower
otherwise access to carry at an eligible institution at
least one-half the normal academic workload (as
determined by the institution).
This loan may be eligible for interest subsidy
payments of seven (7) percent per annum by the U.S.
Government. If eligible. These subsidized interest

App.57a
payments that be paid on behalf of the borrower by
the U.S. Government and shall reduce Borrower’s
interest obligation as provided above. The Lender or
holder hereof will not collect or attempt to collect
interest from the Borrower eligible for and receiving a
federal interest subsidy. The federal interest subsidy
shall terminate upon the Maturity Date of this Note
or upon the date of default as described in Paragraph
3 below. Default caused by making a false loan application or financial statement may result in retroactive
termination of the interest subsidy. Upon the
termination of subsidized interest payments, the
Borrower shall thereafter be Noble for payment of
interest on the unpaid principal balance at the annual
interest rate of seven (7) percent, which shall accrue
from the date the subsidized payments terminate.
The Borrower further understands and agrees:
1. Governing Law, Connecticut Student Loan
Foundation. This Note is subject to the provisions of
Subchapter IV. Part B, of the Higher Education Act
1965, as amended, and any regulations issued thereunder, and Connecticut General Statutes Chapter 180,
§ 10-358 et seq., as amended. This Note shall otherwise
be governed and construed in accordance with the
laws of the State of Connecticut.
2. Installment Note. In lieu of paying this Interim
Note in cash (or the equivalent acceptable to the
holder) upon the Maturity Date, the Borrower may
execute and deliver to the holder an Installment Note,
on a form containing such terms and conditions as
may then be prescribed by the holder and the Connecticut Student Loan Foundation, for the payment of the
principal balance owing plus all accrued and unpaid
interest. The installment Note will require completion

App.58a
of repayment within fifteen (15) years from the data
of execution of the Borrower’s initial guaranteed
student loan except in the event of an extension pursuant to Paragraph 4 below. The Installment Note
will require the Borrower to pay a minimum of $360
Per year, including interest or the balance of all such
loans (whichever is less), except that in the case of a
husband and wife, both of whom have guaranteed
student loans outstanding, the total of the combined
payments for such a couple during any year shall not
be less than $360 or the balance of all such loans,
whichever is less.
3. Default. The Borrower shall be considered in
default if any of the following conditions should exist:
(a) if there has been a failure to pay principal
and unpaid interest hereunder when due or,
in the alternative, to execute and deliver an
installment Note in lieu of such payment on
or before the Maturity date. The Borrower
will be given 120 days from the Maturity
Date to cure the failure to pay this Note or to
execute and deliver an installment Note; or
(b) if bankruptcy proceedings are commenced by
or against the Borrower; or
(c)

if the Borrower has submitted to the Lender,
holder hereof, or Connecticut Student Loan
Foundation, or shall hereafter submit, for student loan purpose, a loan application or
financial statement that is false, fraudulent,
or contains a material misrepresentation.

In the event of default by reason of bankruptcy or
the submission of a false statement, the Lender or
holder hereof may, at its option, declare the entire

App.59a
balance of principal and unpaid interest immediately
due and payable. In the event of default for any
reason, interest shall be charged to the Borrower and
shall accrue on the unpaid balance (consisting of principal and accrued and unpaid interest as of the date of
default) of the annual rate of seven (7) percent from
the date of default.
4. Extension. In the event that the Borrower has
ceased to carry at an eligible institution in which the
Borrower has been accepted for enrollment or was
enrolled at least one-half the normal full-time academic
workload, or in the event the Borrower has completed
the academic program for which the loan was made,
the Maturity Date hereunder may be extended during
the period that the Borrower is pursuing a full-time
course of study at an eligible institution, or is pursuing
a course of study pursuant to a graduate fellowship
program approved by the U.S. Commissioner of Education and the Connecticut Student Loan Foundation,
or during a period not in excess of three (3) years
during which the Borrower is a member of the Armed
Forces of the United States, serves as a volunteer under
the Peace Corps Act, serves as a full-time volunteer
under the Domestic Volunteer Service Act of 1973, or
during a single period, nor it, excess of twelve (12)
months, at the request of the Borrower, during which
the Borrower is seeking and unable to find full-time
employment. During any such extension period, the
Borrower, if otherwise eligible, may receive federal
interest subsidy. In order to obtain an extension pursuant to this paragraph, the Borrower agrees to
notify, and to provide satisfactory proof, to the holder
hereof of such affiliation or status, and to execute an
Extension Note on a form containing such terms and

App.60a
conditions as may then be prescribed by the holder
and the Connecticut Student Loan Foundation. Any
period of extension pursuant to the paragraph shall
not be counted in determining the fifteen (15) year
maximum period required by Paragraph 2 hereof
5. Prepayment. This Note may be prepaid at any
time, either in whole or in part, of the option of the
Borrower, without penalty and without liability for
unaccrued interest. Such prepayment shall be first
applied to interest accrued and unpaid (and not paid
by the Federal interest subsidy) to the date of prepayment the balance of the prepayment shall be applied
to principal.
6. No Waiver. No extension of time for payment
of all or part of the amount owing hereunder shall
affect the Borrower’s liability hereunder, nor shall
acceptance by the holder hereof of any late payment
constitute a waiver of any other rights of the holder.
7. Demand. Demand, presentment for payment,
and notice of dishonor are expressly waived by the
Borrower
8. Collection Costs. In the event of default, the
Borrower shall pay at costs of collection, including
court costs and reasonable attorneys’ fees incurred in
the collection of this Note.
9. Notification of Change of Address. The Borrower
hereby agrees to notify the holder hereof of any change
of address promptly after the change.
Borrower acknowledges that prior to signing
below, he or she has received and read a legible and
completely filled-in copy of this Note and the accompanying Truth-in-Lending Disclosure for this Note.

App.61a

/s/ Peter R. Rumbin
Signature of Borrower
Peter R. Rumbin
Typed or Printed Name of
Borrower
87 Second St.
Hamden, Connecticut 06514
October 28, 1977
Date of Execution
/s/ Delores A. DeLucia
Consumer Loan Collection Officer
Date: September 9, 1987

App.62a
STUDENT LOAN INTERIM NOTE
(DECEMBER 21, 1978)
No 339-01071
_________________________
Amount of Loan $2,500.00
FOR VALUE RECEIVED, the undersigned Borrower premises to pay to the order of Connecticut
Saving Bank, 47 Church Street, New Raven, Connecticut
The sum of Two Thousand five hundred dollars
and no cents Dollars ($2,500.00) together with Interest
at the rate of Seven (7) percent per annum on the
outstanding principal balance, which interest shall be
charged and shall accrue from the date hereof, or if
the loan proceeds are disbursed at a later date from
the date of actual disbursement by the lender of the
loan proceeds. If there is such a delay in the
disbursement of load proceeds the obligation of the
borrower is conditioned upon the disbursement of loan
proceeds in the amount stated above. This Note
becomes payable and shall mature upon the earlier of
the following dates, (1) the first day of the thirteenth
calendar month after the month in which the borrower
completes the academic program for which the loan
was made, or (2) the first day if the tenth calendar
month after the month which the borrower otherwise
access to carry at an eligible institution at least onehalf the normal academic workload (as determined by
the institution).
This loan may be eligible for interest subsidy
payments of seven (7) percent per annum by the U.S.

App.63a
Government. If eligible. These subsidized interest payments that be paid on behalf of the borrower by the
U.S. Government and shall reduce Borrower’s interest
obligation as provided above. The Lender or holder
hereof will not collect or attempt to collect interest
from the Borrower eligible for and receiving a federal
interest subsidy. The federal interest subsidy shall
terminate upon the Maturity Date of this Note or
upon the date of default as described in Paragraph 3
below. Default caused by making a false loan application or financial statement may result in retroactive
termination of the interest subsidy. Upon the termination of subsidized interest payments, the Borrower
shall thereafter be liable for payment of interest on the
unpaid principal balance at the annual interest rate of
seven (7) percent, which shall accrue from the date the
subsidized payments terminate.
The Borrower further understands and agrees:
1. Governing Law, Connecticut Student Loan
Foundation. This Note is subject to the provisions of
Subchapter IV. Part B, of the Higher Education Act
1965, as amended, and any regulations issued thereunder, and Connecticut General Statutes Chapter 180,
§ 10-358 et seq., as amended. This Note shall otherwise
be governed and construed in accordance with the
laws of the State of Connecticut.
2. Installment Note. In lieu of paying this Interim
Note in cash (or the equivalent acceptable to the holder) upon the Maturity Date, the Borrower may execute
and deliver to the holder an Installment Note, on a
form containing such terms and conditions as may then
be prescribed by the holder and the Connecticut
Student Loan Foundation, for the payment of the
principal balance owing plus all accrued and unpaid

App.64a
interest. The installment Note will require completion
of repayment within fifteen (15) years from the data
of execution of the Borrower’s initial guaranteed
student loan except in the event of an extension pursuant to Paragraph 4 below. The Installment Note
will require the Borrower to pay a minimum of $360
Per year, including interest or the balance of all such
loans (whichever is less), except that in the case of a
husband and wife, both of whom have guaranteed
student loans outstanding, the total of the combined
payments for such a couple during any year shall not
be less than $360 or the balance of all such loans,
whichever is less.
3. Default. The Borrower shall be considered in
default if any of the following conditions should exist:
(a) if there has been a failure to pay principal
and unpaid interest hereunder when due or,
in the alternative, to execute and deliver an
installment Note in lieu of such payment on
or before the Maturity date. The Borrower
will be given 120 days from the Maturity
Date to cure the failure to pay this Note or to
execute and deliver an installment Note; or
(b) if bankruptcy proceedings are commenced by
or against the Borrower; or
(c)

if the Borrower has submitted to the Lender,
holder hereof, or Connecticut Student Loan
Foundation, or shall hereafter submit, for
student loan purpose, a loan application or
financial statement that is false, fraudulent,
or contains a material misrepresentation.

In the event of default by reason of bankruptcy or
the submission of a false statement, the Lender or

App.65a
holder hereof may, at its option, declare the entire
balance of principal and unpaid interest immediately
due and payable. In the event of default for any reason,
interest shall be charged to the Borrower and shall
accrue on the unpaid balance (consisting of principal
and accrued and unpaid interest as of the date of
default) of the annual rate of seven (7) percent from
the date of default.
4. Extension. In the event that the Borrower has
ceased to carry at an eligible institution in which the
Borrower has been accepted for enrollment or was
enrolled at least one-half the normal full-time academic
workload, or in the event the Borrower has completed
the academic program for which the loan was made,
the Maturity Date hereunder may be extended during
the period that the Borrower is pursuing a full-time
course of study at an eligible institution, or is pursuing
a course of study pursuant to a graduate fellowship
program approved by the U.S. Commissioner of Education and the Connecticut Student Loan Foundation,
or during a period not in excess of three (3) years
during which the Borrower is a member of the Armed
Forces of the United States, serves as a volunteer under
the Peace Corps Act, serves as a full-time volunteer
under the Domestic Volunteer Service Act of 1973, or
during a single period, nor it, excess of twelve (12)
months, at the request of the Borrower, during which
the Borrower is seeking and unable to find full-time
employment. During any such extension period, the
Borrower, if otherwise eligible, may receive federal
interest subsidy. In order to obtain an extension pursuant to this paragraph, the Borrower agrees to
notify, and to provide satisfactory proof, to the holder
hereof of such affiliation or status, and to execute an

App.66a
Extension Note on a form containing such terms and
conditions as may then be prescribed by the holder
and the Connecticut Student Loan Foundation. Any
period of extension pursuant to the paragraph shall
not be counted in determining the fifteen (15) year
maximum period required by Paragraph 2 hereof
5. Prepayment. This Note may be prepaid at any
time, either in whole or in part, of the option of the
Borrower, without penalty and without liability for
unaccrued interest. Such prepayment shall be first
applied to interest accrued and unpaid (and not paid
by the Federal interest subsidy) to the date of
prepayment the balance of the prepayment shall be
applied to principal.
6. No Waiver. No extension of time for payment
of all or part of the amount owing hereunder shall
affect the Borrower’s liability hereunder, nor shall
acceptance by the holder hereof of any late payment
constitute a waiver of any other rights of the holder.
7. Demand. Demand, presentment for payment,
and notice of dishonor are expressly waived by the
Borrower
8. Collection Costs. In the event of default, the
Borrower shall pay at costs of collection, including
court costs and reasonable attorneys’ fees incurred in
the collection of this Note.
9. Notification of Change of Address. The Borrower hereby agrees to notify the holder hereof of any
change of address promptly after the change.
Borrower acknowledges that prior to signing below,
he or she has received and read a legible and completely

App.67a
filled-in copy of this Note and the accompanying Truthin-Lending Disclosure for this Note.
/s/ Peter R. Rumbin
Signature of Borrower
Peter R. Rumbin
Typed or Printed Name of
Borrower
87 Second St.
Hamden, Connecticut 06514
December 21, 1978
Date of Execution

App.68a
DEFENDANT’S ORIGINAL ANSWER
(NOVEMBER 3, 1989)
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
________________________
UNITED STATES OF AMERICA,

Plaintiff,
v.
PETER R. RUMBIN,

Defendant.
________________________
Civil No. N-89-522-WWE
Now comes Peter R. Rumbin, defendant herein, for
answer to the Complaint as follows:
First Defense
1. The Defendant admits the allegations contained in Paragraphs 1. and 2. of the complaint.
2. The Defendant is without sufficient information or knowledge to form a belief as to the truth of the
allegations contained in Paragraph 3. of the complaint
and leaves the plaintiff to its proof.
3. The defendant admits that demand has been
made upon him by the plaintiff for the sum claimed
and that this amount remains unpaid as alleged in
Paragraph 4. of the complaint, but is without knowledge

App.69a
or information sufficient to form a belief as to the
truth of the remaining allegations contained in said
paragraph.
Second Defense
1. The subject loan in this action, as well as a
Connecticut Student Loan were made incident the
defendant’s application for financial assistance to the
University of Chicago, Financial Aid Office.
2. Said financial aid office required the defendant’s application for said loans as a condition to
application for financial aid.
3. Said University financial aid office undertook
to plan and advise the defendant with respect to his
application for financial aid including non-refundable
grants and loans from both the federal government
and State of Connecticut.
4. Said university, its agents or servants within
said financial aid office represented to the defendant
that federal grant monies available to the university
would be utilized first to finance the defendant’s
educational expenses before any loan funds.
5. In rendering said assistance said university it
agents or servants caused the defendant to make
application for loans far in excess of what was
necessary had said available grant monies been fully
utilized, and beyond what it knew or should have
known to be the defendant’s ability to repay any such
loans.
6. Said university failed and neglected to utilize
federal BEOG (now PELL) funds, which were then
available, toward the defendant’s education causing

App.70a
him to borrow beyond his means and ultimately be
forced to discontinue his degree program at said
university.
7. Any sums found owing by the defendant to the
plaintiff are owed by said university to the defendant
for its said fraudulent misrepresentations.
The Defendant, Pro Se
/s/ Peter R. Rumbin
87 Second Street
Hamden, Conn. 06514
Phone: (203) 776-0235

App.71a
OFFSET STATEMENT
(SEPTEMBER 13, 2017)
DEPARTMENT OF THE TREASURY
BUREAU OF THE FISCAL SERVICE
P.O. Box 1686 Birmingham, AL 35201-1686
________________________
Peter Rumbin
87 Second St.
Hamden, CT 06514
US DEPARTMENT OF THE TREASURY
TREASURY OFFSET PROGRAM
SENSITIVE BUT UNCLASSIFIED
Offset Report as of 09-13-2017 14:54:25
Debtor TIN: 044387329
Debtor Status: Inactive
Subject to Offset: No
Debt Number: 05044387329
Debt Type: Individual
Offset Count: 67
Debtor Name: Peter Rumbin
Debt Phone: 8006213115
Reversal Count: 0
Agency ID/Name: 05-U.S. Department of Education

App.72a
Agency Site Name/Address:
50-U.S. Department of Education
Federal Offset Unit
P.O. Box 5227
Greenville, TX 75403
Offset Information
Payee Name/Address:
Peter Rumbin
87 Second St.,
Hamden, CT 06514-4711
Agency Site ID: 50
Payment Agency: 27/Social Security Administration
Payment Type: SC
REV: No
Payment Date

Payment
Amount

Offset Amount

2016-12-02

$898.00

$134.70

2016-11-03

$898.00

$134.70

2016-10-03

$898.00

$134.70

2016-09-02

$898.00

$134.70

2016-08-03

$898.00

$134.70

2016-07-01

$898.00

$134.70

2016-06-03

$898.00

$134.70

2015-06-03

$898.00

$134.70

2016-04-01

$898.00

$134.70

2016-03-03

$898.00

$134.70

App.73a
2016-02-03

$898.00

$134.70

2015-12-31

$898.00

$134.70

2015-12-03

$898.00

$134.70

2015-11-03

$898.00

$134.70

2015-10-02

$898.00

$134.70

2015-09-03

$898.00

$134.70

2015-08-03

$898.00

$134.70

2015-07-02

$898.00

$134.70

2015-06-03

$898.00

$134.70

2915-05-01

$898.00

$134.70

2015-04-03

$898.00

$134.70

2015-03-03

$898.00

$134.70

2015-02-03

$898.00

$134.70

2015-01-02

$898.00

$134.70

2014-12-03

$882.00

$132.00

2014-11-03

$882.00

$132.00

2014-10-03

$882.00

$132.00

2014-09-03

$882.00

$132.00

2014-08-01

$882.00

$132.00

2014-07-03

$882.00

$132.00

2014-06-03

$882.00

$132.00

2014-05-29

$31.00

$31.00

2014-05-02

$882.00

$132.00

2014-04-03

$882.00

$132.00

App.74a
2014-03-03

$882.00

$132.00

2014-02-03

$882.00

$132.00

2014-01-03

$882.00

$132.00

2013-12-03

$867.00

$117.00

2013-11-01

$867.00

$117.00

2013-10-03

$867.00

$117.00

2013-09-03

$867.00

$117.00

2013-08-02

$867.00

$117.00

2013-07-03

$867.00

$117.00

2013-06-03

$867.00

$117.00

2013-05-03

$867.00

$117.00

2013-04-03

$867.00

$117.00

2013-03-01

$867.00

$117.00

2013-02-01

$867.00

$117.00

2012-11-02

$856.00

$106.00

2012-10-03

$856.00

$106.00

2012-08-31

$856.00

$106.00

2012-08-03

$856.00

$106.00

2012-07-03

$856.00

$106.00

2012-06-01

$856.00

$106.00

2012-05-03

$856.00

$106.00

2012-04-03

$856.00

$106.00

2012-03-02

$856.00

$106.00

2011-12-02

$826.00

$76.00

App.75a
2011-11-03

$826.00

$76.00

2011-10-03

$826.00

$76.00

2011-09-02

$826.00

$76.00

2011-08-03

$826.00

$76.00

2011-07-01

$826.00

$76.00

2011-06-03

$826.00

$76.00

2011-05-03

$826.00

$76.00

2011-04-01

$826.00

$76.00

2011-03-03

$826.00

$76.00

